  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW OF
JFK MEDICAL CENTER FOR CALENDAR
      YEARS 2009 AND 2010


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Brian P. Ritchie
                                                 Assistant Inspector General

                                                        November 2013
                                                        A-04-12-07032
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of claims using computer matching, data mining, and analysis of claims.
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

JFK Medical Center (the Hospital) is a 460-bed acute care facility located in Atlantis, Florida.
According to CMS’s National Claims History data, Medicare paid the Hospital approximately
$208 million for 30,572 inpatient and 40,770 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2009 and 2010.

Our audit covered $25,195,979 in Medicare payments to the Hospital for 3,816 claims that were
potentially at risk for billing errors. We randomly selected a sample of 200 (196 inpatient and 4
outpatient) claims with payments totaling $1,320,562 for review. These 200 claims had dates of
service in CYs 2009 and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 70
inpatient claims resulting in overpayments of $293,869.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our random sample results, we estimated that the Hospital received overpayments
totaling $4,395,269 for CYs 2009 and 2010.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $4,395,269 in estimated overpayments for CY 2009 and
       2010 claims that it incorrectly billed and

   •   strengthen controls to ensure full compliance with Medicare requirements.

JFK MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital did not agree with our first
recommendation and stated that CMS is time-barred from recovering any claims paid in 2009.
Section 1870(b) of the Act prohibits recovery of any paid claims subsequent to the third calendar
year after the year of payment because providers are deemed to be “without fault.” For claims
paid in 2009, the last day to recover an overpayment was December 31, 2012. In addition, even
if the Hospital were not “without fault,” many of the 2009 claims could not be reopened beyond
4 years under Medicare’s reopening rules, even if CMS could establish “good cause.”

The Hospital also contested that it improperly billed 39 inpatient claims. For these, the Hospital
either did not agree with our error determinations (noting that we did not use physician medical
reviewers) or argued that the claims were time-barred. The Hospital also objected to the
application of extrapolation as being erroneous as a matter of law and statistical integrity. In
regard to our second recommendation, the Hospital discussed steps it had taken or planned to
take to strengthen its internal controls to ensure compliance with Medicare billing requirements.

OFFICE OF INSPECTOR GENERAL RESPONSE

Claims Remain Subject to Reopening and Recovery

We disagree with the Hospital’s assertion that the 2009 claims are time-barred. The claims from
2009 are eligible to be reopened under the “similar fault” provisions of the reopening regulations
(42 CFR part 405, subpart I). Section 405.980(b) provides that an initial determination or
redetermination can be reopened at any time if there is reliable evidence of fraud or similar fault.


                                                 ii
Although OIG is not alleging that the Hospital engaged in fraud, its improper billings are
sufficient to establish “similar fault” under current Medicare guidance (42 CFR § 405.902 and 70
Fed. Reg. 11420 and 11450 (March 8, 2005)). Therefore, no time limit prohibits the reopening
of the claims questioned in this report.

The Hospital is not “without fault” with respect to the claims questioned in the report and,
therefore, recovery is not time-barred under section 1870(b) of the Act. CMS guidance states
that a provider is not without fault if, among other circumstances, the provider should have
known that the underlying services were non-covered. Furthermore, a provider should know of a
policy or rule if the policy or rule is in the provider manual or in Federal regulation (Medicare
Financial Management Manual, Pub. 100-06, chapter 3, § 90.1). We questioned the claims in
this report on the basis of criteria drawn from statutory, regulatory, and manual provisions with
which the Hospital is expected to be familiar. Therefore, the Hospital is not “without fault” with
respect to our findings above.

Contested Determinations of Claims

In response to the Hospital’s contestation that it improperly billed 39 inpatient claims, we
obtained an independent, physician medical review of all of these claims for medical and coding
errors, and our report reflects the results of the review.

Statistical Sampling

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. Therefore, we recommend that the Hospital refund
to the Medicare program $4,395,269 in estimated overpayments for CYs 2009 and 2010.




                                                 iii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       BACKGROUND ...................................................................................................................1
          Hospital Inpatient Prospective Payment System ..........................................................1
          Hospital Outpatient Prospective Payment System .........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................1
          Medicare Requirements for Hospital Claims and Payments .........................................2
          JFK Medical Center .......................................................................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
          Objective ........................................................................................................................3
          Scope ..............................................................................................................................3
          Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS..................................................................................4

       BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
           Incorrectly Billed as Inpatient ........................................................................................5
           Incorrect Diagnosis-Related Groups ..............................................................................5

       OVERALL ESTIMATE OF OVERPAYMENTS.................................................................5

       RECOMMENDATIONS ......................................................................................................6

       JFK MEDICAL CENTER COMMENTS .............................................................................6
           2009 Claims Are Time-Barred.......................................................................................6
           Contested Determinations of Claims. ............................................................................6
           Statistical Sampling .......................................................................................................6

       OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7
           Claims Remain Subject to Reopening and Recovery ....................................................7
           Contested Determinations of Claims .............................................................................7
           Statistical Sampling .......................................................................................................7

APPENDIXES

       A: SAMPLE DESIGN AND METHODOLOGY

       B: SAMPLE RESULTS AND ESTIMATES

       C: RESULTS OF REVIEW BY RISK AREA

       D: JFK MEDICAL CENTER COMMENTS




                                                                      iv
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all
inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG


1
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



                                                         1
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. The types of claims identified included:

    •   inpatient claims for short stays,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient claims with same day discharges and readmissions,

    •   inpatient claims paid in excess of charges, and

    •   outpatient claims greater than $25,000.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

JFK Medical Center

JFK Medical Center (the Hospital) is a 460-bed acute care facility located in Atlantis, Florida.
According to CMS’s National Claims History (NCH) data, Medicare paid the Hospital
approximately $208 million for 30,572 inpatient and 40,770 outpatient claims for services
provided to beneficiaries during calendar years (CYs) 2009 and 2010.




                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected types of claims.

Scope

Our audit covered $25,195,979 in Medicare payments to the Hospital for 3,816 claims that were
potentially at risk for billing errors from which we randomly selected a sample of 200 (196
inpatient and 4 outpatient) claims with payments totaling $1,320,562 for review. These 200
claims had dates of service in CYs 2009 and 2010.

We focused our review on the risk areas that we had identified during prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 84
inpatient claims to focused medical review to determine whether the services met medical
necessity and coding requirements.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the NCH file, but we did not assess the
completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during April of 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s NCH file
        for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    selected a random sample of 200 claims (196 inpatient and 4 outpatient) totaling
        $1,320,562 for detailed review (Appendix A);




                                                 3
   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning DRG, HCPCS, and admission status
       codes for Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   used CMS’s Medicare administrative contractor (MAC) medical review staff and an
       independent medical review contractor to determine whether a selection of sampled
       claims met medical necessity and coding requirements;

   •   calculated the correct payments for those claims requiring adjustment;

   •   used OIG/Office of Audit Services (OAS) software to estimate the total overpayment to
       the Hospital (Appendix B); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 70
inpatient claims resulting in overpayments totaling $293,869.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our sample results, we estimated that the Hospital received overpayments totaling at
least $4,395,269 for CYs 2009 and 2010. See Appendix A for details on our sample design and
methodology, Appendix B for our sample results and estimates, and Appendix C for the results
of our review by risk area.



                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 70 of the 196 inpatient claims that we reviewed.
These errors resulted in overpayments totaling $293,869.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury or to
improve the functioning of a malformed body member.”

For 56 of the 196 inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that it should have billed either as outpatient or as outpatient with observation
services. These errors occurred because the Hospital’s staff either relied on evidence-based
decision support software to determine the patients’ levels of care or failed to follow established
criteria. As a result, the Hospital received overpayments totaling $266,925. 3

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Chapter 1, § 80.3.2.2, of the
Manual requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

For 14 of the 196 inpatient claims, the Hospital billed Medicare for incorrect DRG codes. These
errors occurred because the Hospital’s medical coders incorrectly assigned procedure or
diagnosis codes that the medical records did not support. As a result, the Hospital received
overpayments totaling $26,944.

OVERALL ESTIMATE OF OVERPAYMENTS

Based on our random sample results, we estimated that the Hospital received overpayments
totaling at least $4,395,269 for CYs 2009 and 2010. See Appendix A for details on our sample
design and methodology, and Appendix B for our sample results and estimates.




3
  The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the MAC prior
to the issuance of our report.



                                                          5
RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $4,395,269 in estimated overpayments for CY 2009 and
        2010 claims that it incorrectly billed and

    •   strengthen controls to ensure full compliance with Medicare requirements.

JFK MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
Concerning our second recommendation, the Hospital discussed steps it had taken or planned to
take to strengthen its internal controls to ensure compliance with Medicare billing requirements.

2009 Claims Are Time-Barred

The Hospital stated that CMS is time-barred from recovering any claims paid in 2009. Section
1870(b) of the Act prohibits recovery of any paid claims subsequent to the third calendar year
after the year of payment because providers are deemed to be “without fault.” For claims paid in
2009, the last day to recover an overpayment was December 31, 2012. In addition, even if the
Hospital were not “without fault,” many of the 2009 claims could not be reopened beyond 4
years under Medicare’s reopening rules, even if CMS could establish “good cause.”

Contested Determinations of Claims

The Hospital contested that it improperly billed 39 inpatient claims. For these, the Hospital
either did not agree with our error determinations (noting that we did not use physician medical
reviewers) or argued that the claims were time-barred.

Statistical Sampling

The Hospital objected to the application of extrapolation as being erroneous as a matter of law
and statistical integrity.

Matter of Law

With respect to the matter of law, the Hospital noted that the authority of CMS and its
contractors to extrapolate is subject to strict statutory and regulatory limits.

Statistical Integrity

The Hospital stated that it had concerns with the decision to extrapolate the results of the audit
using a post-stratification methodology. Secondly, the Hospital argued that the overall statistical
sampling precision level of 21.96 percent at the 90 percent confidence level is not reliable.




                                                 6
Thirdly, the Hospital contends that, for 13 of the 200 claims in the sample, the payment amounts
did not match the amounts in the sampling frame. Lastly, the Hospital contends that the
sampling frame appears to include a duplicate claim.

The Hospital’s response is included as Appendix D. We excluded supporting schedules and
reference material from the Hospital’s response because it included personally identifiable
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Claims Remain Subject to Reopening and Recovery

We disagree with the Hospital’s argument that the 2009 claims are time-barred.

Reopening

The claims from 2009 are eligible to be reopened under the “similar fault” provisions of the
reopening regulations (42 CFR part 405, subpart I). Section 405.980(b) provides that an initial
determination or redetermination can be reopened at any time if there is reliable evidence of
fraud or similar fault. Although OIG is not alleging that the Hospital engaged in fraud, its
improper billings are sufficient to establish “similar fault” under current Medicare guidance
(42 CFR § 405.902 and 70 Fed. Reg. 11420 and 11450 (March 8, 2005)). Therefore, no time
limit prohibits the reopening of the claims questioned in this report.

Recovery

The Hospital is not “without fault” with respect to the claims questioned in the report and,
therefore, recovery is not time-barred under section 1870(b) of the Act. CMS guidance states
that a provider is not without fault if, among other circumstances, the provider should have
known that the underlying services were non-covered. Furthermore, a provider should know of a
policy or rule if the policy or rule is in the provider manual or in Federal regulation (Medicare
Financial Management Manual, Pub. 100-06, chapter 3, § 90.1). We questioned the claims in
this report on the basis of criteria drawn from statutory, regulatory, and manual provisions with
which the Hospital is expected to be familiar. Therefore, the Hospital is not “without fault” with
respect to our findings above.

Contested Determinations of Claims

In response to the Hospital’s contestation that it improperly billed 39 inpatient claims, we
obtained an independent, physician medical review of all of these claims for medical and coding
errors, and our report reflects the results of the review.

Statistical Sampling

During the course of the audit, we discussed with a Hospital official our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit


                                                 7
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.
We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. Therefore, we recommend that the Hospital refund
to the Medicare program $4,395,269 in estimated overpayments for CYs 2009 and 2010.

Matter of Law

Courts have long held the validity of using sampling and extrapolation in audits of Federal health
programs. 4 Furthermore, such statistical sampling and methodology may be used in cases
seeking recovery against States, individual providers, and private institutions. 5

Statistical Integrity

The decision to post-stratify the results of our audit for estimation purposes allowed us to keep
together claims within the same risk area. We did rely on a statistically valid sample. 6 In his
book, Sample Design in Business Research, W. Edwards Deming (1960) states: “An estimate
made from a sample is valid if it is unbiased or nearly so and if we can compute its margin of
sampling error for a given probability.” We selected our samples according to principles of
probability (every sampling unit has a known, nonzero chance of selection). We used the
difference estimator (an unbiased estimator) for monetary recovery and recommended recovery
at the lower limit of the 90-percent, two-sided confidence interval.

The Hospital also raised concerns about the precision of the overall error estimates and, in
particular, about Stratum 2. The estimates presented in this report, however, are statistically
valid.

After our initial data extraction, the Hospital adjusted some claims through the MAC that were
part of our sample items. This adjustment resulted in a payment amount that is different from the

4
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D.Ga. 1977) (ruling that sampling and
extrapolation are valid audit techniques for programs under Title IV of the Social Security Act); Ratanasen v.
California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and
subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v.
Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques for calculating Medicaid overpayments claimed against an individual physician).
5
    Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).
6
 See Puerto Rico Department of Health, DAB (Departmental Appeals Board) No. 2385 (2011) (DAB upholding
disallowance of claims based on statistical sampling and statistical methodology).




                                                            8
original amount in the sampling frame. For some claims, the payment amount increased; for
other claims, it decreased. The net effect, however, was a decrease in the total amount of the
value of our sample, which also benefitted the Hospital. The estimated overpayment is based on
the value of the claim as it was in CWF at the time of the review.

In addition, the Hospital noted that our sampling frame appears to contain one duplicate claim.
However, the claim to which the Hospital is referring is not a duplicate in our frame; instead, it
constitutes two different records that the MAC processed and paid twice. The Hospital filed this
claim twice under two different Health Insurance Claim Numbers.

We recommend that the Hospital refund to the Medicare program $4,395,269 in estimated
overpayments for CYs 2009 and 2010.




                                                9
APPENDIXES
                                                                                       Page 1 of 2




                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population is inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during CYs 2009 and 2010.

SAMPLING FRAME

According to CMS’s NCH data, Medicare paid the Hospital $208,115,518 for 30,572 inpatient
and 40,770 outpatient claims for services provided to beneficiaries during CYs 2009 and 2010.

We obtained a database of claims from the NCH data totaling $143,804,498 for 10,121 inpatient
and 24,534 outpatient claims in 30 risk areas.

From the 30 risk areas, we selected 5 that consisted of 4,065 claims totaling $26,273,162. The
risk areas are: Inpatient Claims for Short Stays, Inpatient Claims With High-Severity-Level
DRG Codes, Outpatient Claims Greater Than $25,000, Inpatient Claims With Same Day
Discharges and Readmissions, and Inpatient Claims Paid in Excess of Charges.

We combined claims from each of the risk areas into a single database. We then removed 249
claims totaling $1,077,183 as follows:

   •   all claims that were less than $100,

   •   all claims that were under review by the Recovery Audit Contractor, and

   •   all duplicate claims.

This resulted in 3,816 unique Medicare claims remaining totaling $25,195,979, from which we
drew our sample.

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used simple random sampling to select the sample claims.

SAMPLE SIZE

We selected 200 sample claims for review.
                                                                                      Page 2 of 2


SOURCE OF RANDOM NUMBERS

We generated 200 random numbers using the Office of Inspector General, Office of Audit
Services, statistical software Random Number Generator.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims in our sampling frame from 1 to 3,816. After generating
the 200 random numbers, we selected the corresponding claims from our sampling frame.

ESTIMATION METHODOLOGY

Post-stratification: After randomly selecting 200 sample claims from our sampling frame of
3,816 unique Medicare claims, we stratified these claims into one of three different strata:

                                         Sampled Claims by Stratum 1

                                                                   Number of       Number of
                                                                    Claims in       Claims in
     Stratum                        Risk Area                     Sample Frame     the Sample
        1          Inpatient Claims for Short Stays                        2,939           150
        2          Inpatient Claims With High-Severity-Level                 730             45
                   DRG Codes
                   Outpatient Claims Greater Than $25,000                   130                4
          3        Inpatient Claims With Same Day Discharges                 10                1
                   and Readmissions
                   Inpatient Claims Paid in Excess of Charges                  7             0
                      TOTAL                                                3,816           200




1
    Each claim can appear in only one stratum.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                            Number of
                                                            Incorrectly
           Frame                                               Billed       Value of
            Size      Value of     Sample      Value of      Claims in    Overpayments
Stratum   (Claims)     Frame        Size       Sample         Sample       in Sample

   1         2,939   $15,080,893         150    $849,754             54        $256,633

   2           730     5,906,960          45     340,391             16          37,236

   3           147     4,208,126           5     130,417                             0

 Total       3,816   $25,195,979         200   $1,320,562            70        $293,869



ESTIMATES

             Estimated Value of Overpayments for CYs 2009 and 2010
                Limits Calculated for a 90-Percent Confidence Interval

                        Point Estimate           $5,632,342
                        Lower limit              $4,395,269
                        Upper limit              $6,869,415
                         APPENDIX C: RESULTS OF REVIEW BY RISK AREA
                                                                                      Claims
                                                                      Value of         With        Value of
                                                      Selected        Selected        Over-          Over-
                    Risk Area                         Claims          Claims         payments      payments
Inpatient

Claims for Short Stays                                  150             $849,754        54           $256,633

Claims With High-Severity-Level DRG Codes                45              340,391        16             37,236
Claims With Same Day Discharges and
                                                          1                 5,084        0                    0
Readmissions
Claims Paid in Excess of Charges                          0                      0       0                    0

 Inpatient Totals                                       196           $1,195,229        70           $293,869


Outpatient

Claims Greater Than $25,000                               4             $125,333         0                 $0

 Outpatient Totals                                        4             $125,333         0                 $0


 Inpatient and Outpatient Totals                        200           $1,320,562        70           $293,869

     Notice: The table above illustrates the results of our review by risk area. In it, we have
     organized inpatient and outpatient claims by the risk areas we reviewed. However, we have
     organized this report’s findings by the types of billing errors we found at the Hospital. Because
     we have organized the information differently, the information in the individual risk areas in this
     table does not match precisely with this report’s findings.
                                                                                                           Page 1 of 16



          APPENDIX D: JFK MEDICAL CENTER COMMENTS

 DENTONS                   Holley Thames Lutz        Holley lutz@dentons.com           Salans FMC SNR Denton
                           Partner                   D • 1 202 408 8836                dentons.com


                                                     Dentons us  LLP
                                                     1301 K StreeL NW
                                                     Suite 600, East Tower
                                                    WaShing1on, DC 2000~33&1 USA

                                                    T •1 202 .as 6400
                                                     F •1 202 408 6399

June 17, 2013


BY Federal Express and Electronic Mail

Lori S. Pilcher
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region IV
61 forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Rc: 	   Response to the Draft Repon regarding the Medicare Compliance Review ofJFK ,
        Atlantis, f-lorida, Repon Number: A-04-12-07032

Dear Ms. Pilcher:

        JFK Medical Center ("JFK" or "Hospital'')1 is in receipt of the draft repon from the U.S.
Department of Health and Human Services, Office of the Inspector General ("OIG'') (A-04-12­
07032), dated April 30, 2013, entitled "JFK Medical Center Substantially Complied with Medicare
Requirements for Calendar Years 2009 and 201 0'' (referred to herein as " Draft Report''). As
permitted by the terms of the Draft Report, this letter sets forth the Hospital's objections to:
(1) many of the OIG's findings with respect to the actual claims at issue; and (2) the OIG's
recommendation chat these findings be extrapolated for a total overpayment of approximately $4.4
million.

I.       Background

         The OIG did not audit JFK due to any perceived improper billing or compliance practices.
Rather, the OIG selected JFK as pan of an ongoing national auditing initiative focused on cenain
risk areas for hospitals across the country. Indeed, as of the dare of this lettcr, the OIG's national
initiative has resulted in the publication of Medicare Compliance reports relating ro 55 hospitals in
23 states, the District of Columbia, and Puerto.2

         In this case, the OIG's audit considered five risk areas: (1) inpatiem claims for "short-stays"




        JfK is a 460-bed acurc care hospital located in Atlantis, Florida. 

        A summary chart of OIG Medicare Compliance Reports published to date is attached at Tab A 

                                                                                                                Page 2 of 16




 DENTONS 	                 Lori S. Pilcher                                                 Solana FMC SNR D•nton
                           June 17, 2013                                                   denton-s.com
                           Page2




(referred to as "Short-Stays"),l (2) inpatient claims with high-severity diagnosis-related group
("DRG") codes, (3) inpatient claims paid in excess of charges, (4) outpatient claims greater than
$25,000 and (5) inpatient claims with same day discharges and readmissions ("Risk Areas'').'

         The audit ofJFK covered all paid claims involving one or more of the Risk Areas with dates
of service in calendar years 2009-2010 ("Audit Period''), provided that the payment was for $100 o r
more. According to the OIG, once it removed duplicate claims and claims under RAC review, it
ended up with a universe o f 3,816 claims (the "Universe of Claims''), representing a total of
$25,195,979 in Medicare reimbursement. Thereafter, the OIG selected a random sample of 200
claims (representing $1 ,320,562 in Medicare reimbursement) for substantive review, using the OIG's
statistical software Random Number Generator.5 Of the 200 claims, there were 196 inpatient
claims: 150 Short-Stay, 45 high-severity level DRG codes, and one (1) inpatient same day
discharge/ readmissio n. The remaining four (4) claims were fo r outpatient services. Of the 200
claim sample, the O IG subjected 84 for focused medical review, either through the Medicare
Administrative Contractor and/ or the OIG auditors. The OIG also asked the Hospital to self­
evaluate claims.

         Despite JFK's request for information and detail, the OIG has not explained why it chose to
use a sample size of 200 claims. Nor has it explained why it undertook post-sampling stratification
instead of building stratification into the original sample design. Certainly, the use of post-sampling
stratification does no t appear to have increased the reliability of the extrapolatio n in any meaningful
                                                                               =
sense. Moreover, after dividing the sample into three strata - Stratum 1 "Short-Stays" , Stratum 2
=                                                                                      =
   Inpatient Claims Billed With High-Severity-Level DRG Codes, and Stratum 3 claims in the
remaining Risk Categories - the OIG realized that Stratum 3 contained five (5) claims only, making
it inappropriate for extrapolation and requiring the OIG to assign each of the five (5) claims a zero
dollar value.

II.     Draft Report Findings

         At the conclusio n of the O IG 's review, it found that JFK "substantially" complied with
Medicare billing requirements during the Audit Period. Specifically, the H ospital o nly had alleged
erro rs in two of the five Risk Areas. More specifically, the OIG concluded that 70 claims of the 200
were allegedly billed in error, for a total alleged overpayment of $293,869 - a claims error rate of 35
percent, but a financial error rate of 22 percent.



        h is the Hospital's understanding that a "short-stay" for purposes of the Audit included a claim with
        an admission and discharge on the same calendar day and a claim in which discharge occurred
        on the day immediately following the day of admission.
        Draft Report, at 2.
        l!:h at Appendix A, p. 2.
                                                                                                                   Page 3 of 16




 DENTONS 	                  Lori S. Pilcher                                                  S.lans FMC SNR Denton
                            June 17. 2013                                                    dentons.com
                            Page 3




       The more specific findings break down as follows:

       •        With regard to the 150 Short-Stay claims in Stratum 1, the OIG identified 54
                allegedly enoneous claims, to which it ascribed ao alleged overpayment value of
                $256,633.6
       •        With regard to the 45 claims in Stratum 2 (high-severity level DRG codes), the OIG
                identified 16 allegedly erroneous claims, to which it ascribed an alleged overpayment
                value of$37,236.7
                The OIG ascribed a zero dollat value to the five (5) claims in Stratum 3.8

        The OIG proceeds to recommend- without meaningful discussion aod without actually
using the word "extrapolation" - thatJFK refund $4,395,269 in Medicare overpayments. For the
reasons set forth below, the Hospital takes strong exception to these recommendations. It also
recommends that the Hospital "strengthen controls to ensure full compliance with Medicare
requirements."

Ill. 	 JFK's Response to the Draft Report

       A. 	     All claims paid in 2009 are time barred and, as such, there may be no
                recoupment of any alleged overpayments

         In addition to disagreeing substantively with the OIG's findings as noted above, JFK notes
that all 2009 claims are time barred aod, as such, these claims may not form the basis of enors much
less extrapolation. Specifically, 34 of the 70 claims identified by the OIG are for dates of service in
2009, which claims may not be recouped as they are time barred as explained below.9 This
represents approximately 49 percent of the alleged erroneous claims at issue.

        There are two separate laws that, when read together, determine the period of time a
provider is subject to recovery of an overpayment: (1) Social Security Act ("SSA" or " the Act")
§ 1869(b)(1)(G) , which governs when claims may be reopened CReopening Rules"); and (2) SSA
§ 1870, which governs when overpayments may be recovered C'Recovery Rules"). Notably, Section
638 of the American Tax Payer Relief Act ("ATPRA") only amended Section 1870 of the SSA, but
even this expansion still leaves these 2009 claims beyond recoupment.


        I d. 

        Id. Note, there is one claim for inpatient discharge/readmission within the 196 set of inpatient 

        claims at issue, but the OIG found no error in this regard. The OIG grouped this one inpatient 

        claim, and the four outpatient claims, together in Stratum 3, discussed above. 

        ld. 

        These 34 claims are Sample Numbers 1, 18, 23, 24, 25, 26, 31, 36, 38, 63, 64, 67, 71, 72, 74, 93, 110, 

        116,117,124, 125,127, 134,148,153,157,158, 159, 160,164,179,184, 189 and 193. 

                                                                                                                  Page 4 of 16




 DENTONS 	                  Lori S. Pilcher                                                  Sal•na FMC SNR Denton
                            June 17, 2013                                                    dentons.com
                            Page4




                1. 	     Reopening Rules

          The Reopening Rules, and implementing regulations found at 42 C.F.R. § 405.980, prescribe
the relevant time frames and requirements for revising Medicare claims decisions.10 Specifically, a
conttactor's decision to pay a claim, (referred to as an "initial determination') is binding upon all
parries to the claim (i.e., the provider and the contractor) unless a party reopens and revises the initial
determination. 11 A claim may only be reopened: (1) within one-year of payment for any reason; (2)
within four years of payment if the contractor establishes "good cause," or (3) anytime if the
contractor bas "reliable evidence . .. that the initial determination was procured by fraud or similar
fault." 12 Given that the 2009 claims are beyond one-year from payment, and that the O IG has in no
way intimated any evidence of "fraud or similar fault," we are left with only the four-year rule to
consider.

        As noted above, the four-year reopening time frame does not give the contractor unfettered
access to those claims. Rather, only a showing o f "good cause" will afford a contractor (not the
OIG) access to these claims. We respectfully submit that even if the contractor sought to reopen
these claims at some p oint (indeed even 2010 claims), there would be no ability to do so as there is
not "good cause."

        In order to establish "good cause," the contractor would have to establish either: (1) that the
evidence that was considered in making the initial determination or decision clearly shows on its face
that an obvious error was made at the time of the determination or decision;13 or (2) that there is
"new and material evidence" that was not available or known at the time of the initial determination
and may result in a different conclusion. 14 "Good cause" does not exist, however, if a provider
complied with all pertinent regulations, made full disclosure of all material facts, and on the b asis of
the information available, had a reasonable basis for assuming that the payment was correct.'5

        The vast majority of the 70 OIG identified claims relate to "medical necessity," or Short­
Stay, denials. JFK respectfully submits that, despite the O I G's contention,JFK had "a reasonable
basis for assuming payment was correct" because it complied with the Medicare Benefit Policy
Manual ("MBP M"), Ch. 1 § 10. Specifically, the MBPM provides that "a patient is considered an

10 	    The Reopening Rules also govern the proper reopening of Medicare cost reports, ar 42 C.P.R.
        § 405.1885. However, these are not at issue in this case.
11      lli § 405.928(b). Note, Jf.K also argues that CMS or irs contractor, l.!Ql the OIG, is the party to the
        claim that may reopen such claim.
12      42 C.F.R. § 405.980(b)(1), (2) and (3).
13      ~ Id § 405.986(a){2).
,.      ~ ld. § 405.986(a)(1).
15      Sec Medicare Financial Management Manual (" MFMM"), CMS-Pub. 100-06, Ch. 3, § 90.
                                                                                                          Page 5 of 16




 DENTONS                   Lori S. Pilcher                                             Salons FMC SNR Denton
                           June 17. 2013                                               dentons.com
                           Page 5




inpatient if formally admitted as an inpatient with the expectation that he or she will remain at least
overnight and occupy a bed even though it later develops that the patient can be discharged or
transferred to another hospital and not actually use a hospital bed ovemight."16 Thus, as long as
there is an "expectation" of an overnight stay, whether the patient is- in fact - discharged after
six, 12 or 18 hours (for example) is irrelevant: the patient was properly treated as a inpatient.
Moreover:

        The physician or other practitioner responsible for a patient's care at the hospital is
        also responsible for deciding whether the patient should be admitted as an
        inpatient... the decisio n to admit a patient is a complex medical judgment which can
        be made only after the physician has considered a number of factors, including the
        patient's medical history and current medical needs, the types of facilities available tO
        inpatients and to outpatients, the hospital's by-laws and admissions policies, and the
        relative appropriateness of treatment in each setting.17

          ln other words, there should be deference afforded to the patient's physician and this
critical, complex medical decision should not be summarily second-guessed by the OIG after-the­
fact Given that JFK provided care and treated the patient in the status as ordered by his/ her
physician, and given the clinical presentation of the patient at the time of service, J FK submits that it
acted in accordance with Medicare policy and had no understanding that the payment of the claims
were improper. Thus, there is no good cause with :regard to these claims 54 claims, and they may
not be reopened.

       Even if, for the sake of argument, though not conceding the point, these claims may be
reopened by the contractor, a number of the 34 claims for 2009 dates of service are beyond the
four-year time frame. As such, these may not be reopened even if there were "good cause."
Therefore, as of the filing of this letter, only claims that were paid on or after June 17, 2009 may be
reopened by the Medicare contractor (not the OIG).

                2.      Recovery Rules

        If, and only if, an initial determination has been reopened, contractors (not the OIG) may
then seek to recover the overpayment. Section 1870 of the Act governs the recovery of
overpayments and the timing o f the same. Specifically, § 1870 prohibits recovery of overpayments
from providers that are " without fault." Prior to January 2, 2013 and the passage of the ATPRA,
§ 1870 deemed providers to be "without fault" beginning three years after the year in which a claim
was paid, unless there was evidence of provider fault. 18 In essence, this created a rebuttable


16      Medicare Benefit Policy Manual ("MBPM"), Ch. 1, § 10.
17
        Ml
18      ~ 42 U.S.C § 1395gg(b) (2003)        (amended 2013); ~ ~ MrMM, Ch. 3, §§ 80, 90.
                                                                                                           Page 6 of 16




 DENTONS 	                 LoriS . Pilct!er                                              SaliM FMC SNR Denton
                           June 17, 2013                                                 dentons.com
                           Pages




presumption that a provider was "without fault" (and hence no recovery) after the passage of three
calendar years following the calendar year of initial detenni.nation.19 Thus, under the old law, a
contractor could reopen a claim detenni.nation going back four years under the Reopening Rules
(discussed in Section III.A.1 above); but, the contractor could not actually recover an overpayment
for this entire period if the provider was deemed to be "without fault" beyond three years from
payment.

       For example: July 1, 2009, Hospital bills Medicare for a claim with valid documentation of
       the service. On August 1, 2009, Medicare Contractor pays the claim. On May 1, 2013,
       Medicare Contractor detennines that this claim was paid in error. Even with good cause
       that would allow the Contractor to reopen the payment/initial determination made on
       August 1, 2009, because the H ospital was without fault, and because the Recovery Rule
       "three calendar years after the year in which the claim was paid" window closed as of
       January 1, 2013, this August 1, 2009 payment amount may not be recovered.

        Under the new law, effective January 2, 2013, the '\vithout fault'' provision was expanded to
five years after a claim's payment. In other words, a provider is only protected from recovery now
after the expiration of five calendar years after the year in which a claim was paid, not three. This,
coupled with the four-year Reopening Rule will mean that for claims paid on or after January 2,
2013, all claims subject to the Reopening Rule likely will also be subject to the Recovery Rules.
H owever, no recovery is possible for the entire expanded five-year period because the law did not
modify SSA § 1869, thus a claim is still limited to a four-year reopening period with "good cause."

        Given that (1) the Recovery Rules operate on a calendar year basis, (2) all 2009 claims ceased
to be subject to recovery as of 12:00 a.m., January 1, 2013, which was beyond three calen dar years in
which the 2009 claims were paid, and (3) the ATPRA was not implemented until January 2, 201,3
thus the five calendar year expansion cannot apply to claims that expired under the old law as of
January 1, 2013, JFK is " witho ut fault'' in this matter and no 2009 claims are subject to the Recovery
Rules.

        Even if one were to argue that the ATPRA applied retroactively such that the change in the
law to the " fifth calendar year" after payment is retroactive, JFK would strenuously oppose this
argument based on the law and legislative intent. Courts presume a law to operate p rospectively
from its date of enactment unless Congress expressly states that it is to be applied retroactively.
No thing in the ATPRA indicates an intent that this particular amendment apply retroactively. In
addition, any application of this provision retroactively arguably is a violation of due process.

        Finally, as noted above, even assuming the new " fifth calendar year" limitations period were
to apply retroactively to reach earlier claims, a large portion of the 2009 claims still canno t be


19      Mr. Sinai Hospital of Greater Miami. Inc. v. Weinberger, 517 F.2d 329,342 (5th Cit. 1975).
                                                                                                                Page 7 of 16




 DENTONS 	                 Lori s. Pilcher                                                 Salans FMC SNR Denton
                           June 17.2013                                                    denton&-com
                           Page7




recovered under federal law because these claims arc beyond the SSA § 1869 Reopening Rules, as
noted above in Section III.A.L

        B.     JFK contests numewus substantive findings in the Draft Report

       Specifically, the O IG concluded that 70 inpatient claims were billed incorrectly and these
were in two Risk Areas: (1) Short-Stay; and (2) incorrect diagnosis-related codes.

       Separate and apart from the 34 claims that are time-barred as noted above, J FK argues that
the OIG is wrong with respect to 39 of these 70 claims on the clinical merits , or over half of the
OIG's conclusions.

        In other words, JFK had these claims re-reviewcd by independent third party reviewers who
were physician experts in Medicare rules and regulations. These independent physician experts
concluded that, on the merits, JFK was actually right in 24 of the alleged 54 cited errors \vith respect
to Short-Stay claims. Thus, only 30 (not 54) of 150 Short-Stay claims were in error. (Notably, based
on discussions with OIG auditors, it is our understanding that the OIG did not utilize physician
reviewers.)

        Moreover, even though JFK agrees with the O IG as to 30 of the Short-Stay claims at issue,
we note that 14 of these claims are time-barred as they arc 2009 claims.20 Thus, of the 54 claims
identified by the OIG as erroneous, JFK only agrees that 16 are both erroneous and subject to
reopening and recovcry. 21

        With regard to DRG coding issues, JFK identified only one (1) of the OIG's identified 16
claims to be in error.22 Moreover, even if the OIG refuses to concede the 15 remaining DRG
claims,JFK notes that four (4) of these 15 claims a:rc time-barred for the reasons set forth above.23

         JFK is, and has always been, committed to operating in compliance with applicable rules and
regulations. While JFK fundamentally disagrees \vith the OIG's findings with respect to over half of
the 70 claims as issue, the Hospital takes any finding of potential errors seriously. JFK 'vill redouble
its efforts to attend to any opportunities for improvements, including continuing its efforts on
patient status/Short-Stay cases.

        C.      JFK objects to the application of extrapolation

       JFK respectfully challenges the OIG's recommendation that its findings with respect to the


20      These claims are Sample Numbers 1, 18, 24, 38, 63, 67, 72, 74, 110, 124, 134, 148, 153, and 159.
21      These claims arc Sample Numbers 2, 4, 5, 28, 44, 47, 85, 89, 94, 96, 155, 156, 172, 186, 191 and 195.
22      This claim is Sample Number 120.
23      These claims arc Sample Numbers 23, 71, 117 and 189.
                                                                                                                       Page 8 of 16




 DENTONS                      LoriS. Pilcher                                                      Sltans FMC SNR Denton
                              June 17, 2013                                                       dentons.com
                              Pages




70 randomly selected claims be extrapolated to the Universe of Claims. Such extrapolation is
erroneous as a matter law, statistical integrity and fundamental fairness.

                  1.       Extrapolation is unjust and arbiuary as a maner of law

       The Act provides very limited circumstances under which either the Centers for Medicare &
M edicaid Services (" CMS'') o r its contractors may extrapolate results for overpayment purposes.2~
And, as is set forth below, none of these circumstances are at issue in this case.

        Specifically, § 1893(£)(3) of the Act provides that "a Medicare contractor may not usc
extrapolation to determine overpayment amounts to be recovered by recoupment, offset, or
otherwise unless the S emlaty determines that ... the~ is a sttslained or high let!CI ofprgment error... ." 25 Note,
however, there is "no administrative or judicial review ... of determinations by the Secretary of
sustained or high levels of payment errors under this paragraph."26

        With regard to what constitutes the requisite "sustained or high level of payment error,"
neither the Act nor any regulation, preamble or other CMS published guidance defines this standard
either by numeric threshold or othe.t:wise.27 Indeed, during regulatory implementation of this
statutory provision, one commenter requested that CMS "define the phrase 'sustained or high levels
of payment errors"' and requested that CMS specify how such determinations will be made. 28
Without ever specifically answering the commentec's question, CMS noted that, in 2005, it issued
Program Integrity Manual (''PIM") instructions on "determining when a provider or supplier has a
sustained or high level o f payment error,"29 and as such it discussed this issue no further in the
preamble.

         In reviewing the aforementioned Manual instructions,30 one co.n cludes that they are as vague


z•       Given that the OIG has no recoupment authority, but rather must make recommendations to CMS,
         and/or its contractors, to recoup such funds, the statutory limitations related to a contractor's right
         to extrapolate its findings are germane to this issue.
         See 42 U.S.C § 1395ddd(f)(3) (emphasis added). Tbis provision also provides a second factor
         supporting extrapolation, which is "documented educational intervention has failed to correcr the
         payment error," which is not at issue here. Congress added this provision through Section 935(a) of
         the Medicare Prescription Drug Improvement, and Modernization Act of 2003. Pub. L. 108-173,
          § 935(a), 117 Stat. 2066, 2407-2411 (2003).
26
         Mh
l7       Given that there is no allegation of educational intervention and the failure thereof, we focus on
         the first statutory standard that must be met to support extrapolation.
28       74 Fed. Reg. 65296, 6530~4 (Dec. 9, 2009).
29       Id.
}()
         CMS Pub. 100-08, Program Integrity Manual, Transmittal114, June 10, 2005 (CR 3734); ~ Chapter
         3, § 3.10 ct seq.
                                                                                                            Page 9 of 16




 DENTONS                     Lori S. Pik:/ler                                           Salon11 FMC SNR Denton
                             June 17. 2013                                              dentons.com
                             Page9




as the preamble language with regard to what conduct or error rate would support extrapolation.
Although PIM, Ch. 3, § 3.10.1.4 provides a variety of means by which a contractor may find the
requisite high error rate, e.g., probe samples, data analysis or audits/evaluations by the OIG, there is
no guidance as to what error rate triggers the statutory predicate of a "sustained or high .. .error."

        We find that case law, too, is unhelpful in this regard as the majority of cases seeking clarity
on the definition of "sustained or high level of payment errors" have been dismissed because CMS'
finding of a high rate of error is precluded from judicial review.31 However, in at least one case,
Cabarrus Podiatry Clinic, a Medicare Administrative Contractor ("MAC") reversed an overpayment
calculation based on extrapolation where neither the contractor nor CMS could produce a'!Y
dommentation concerning a finding of a high error rate or a documented failure of education. 32 Thus,
at a bare minimum, the M i\ C, CMS or OIG must document its findings that there exists a high rate
of error before extrapolating the findings of a statistical sample to a broader universe of claims.

       The need for a specific finding, and the basis for such a finding, is underscored by CMS'
own discussion in § 3.10.4.2 of the PIM in which CMS notes, "that before using extrapolation to
determine overpayment amounts to be recovered b y recoupment, offset or otherwise, there must be
a determination of sustained or high level of payment error, or documentation that educational
intervention has failed to correct the payment error." 33

        Notably, any such articulated finding, or the basis for such finding, is lacking in this case.
Indeed, how could there be such a finding when of the 55 similar OIG reviews published to date, 26
of the hospitals under review had error .rates higher than JFK's and the OIG did not extrapolate in
any of those cases.34 Moreover, extrapolation subjects JFK to punitive measures, which contravenes
the Secretary's stated purpose of extrapolation, which is to be a method of calculation, not an
unchecked sanction.35

        'Thus, the OIG must at the very feast remain consistent in its application of the "high rate of
error" criterion. Such consistency is seriously called into question if providers presenting nearly
double the error rate of the Hospital are not found to have a " high rate of error" or are not, for
some other undocumented reason, subject to extrapolation.


        See Anghel v . Scbclius, No. 10-CV-4574, 2012 WL 6212843 (E.D.N.Y. Dec. 13, 2012); Gcnt:iva
        Hcalthcare Cotp. y. Sebelius, 857 F. Supp.2d 1, 13 (D.D.C. 2012); Morgan y . Sebelius, No. 11 Civ.
        0300,2012 WL 1231960, at *1 (S.D.W.Va. Apr. 12, 2012); John Balko & Assocs. v. Sebclius, No. 12­
        CV-0572, 2012 WL 6738246 (W.O. Pa. Dec. 28, 2012).
32      Cabarrus Podiatry Clinic (Appellant.) Q3cneficiaries) Oaim for Part B Benefits, ALJ Appeal No. 1­
        127356701 (Dec. 14, 2007).
33      Id. ar § 3.10.1.2.
34      S!:£ Tab A
35      74 Fed. Reg. at 6530:>-04.
                                                                                                         Page 10 of 16




 DENTONS                   Lori$. Pilcher                                               Salons FMC SNR Denton
                           June 17, 2013                                                dentons.com
                           Page 10




        Indeed, a high error rate does not seem to be the basis for the GIG's extrapolation. Rather,
the decision to extrapolate seems to have been made before the OIG's review was barely underway.
On February 6, 2012, JFK received its first notice that it was selected for OIG review. On or about
March 9, 2012, JFK received a list of 200 claims to be reviewed. JFK began pulling the
corresponding charts in response to the list. Then, on March 13, 2012, the OIG Auditor emailed
JFK indicating that " HQ may change the sample design," and explained in subsequent telephonic
communications that this meant changing the sample because of the OIG's intention ro extrapolate
the results. JFK objected to the changed sample because the Hospital had started compiling the
charts and such a mid-stream change would be overly burdensome on the Hospital. Thereafter, on
or about March 15, 2012, the OIG Auditor emailed the Hospital CFO to indicate that the Hospital
may proceed with its self-audit on the original list o f 200 charts. The Hospital understood that the
OIG then would not be extrapolating the results. Indeed, it was not until September 27,2012, after
the exit conference and several conferences between the Hospital and the OIG auditors, that
extrapolation was ever mentioned.

        Given its failure to make the requisite s howing of a high payment error rate, and the
apparent OIG decision pre-audit to extrapolate such errors for the simple sake of efficiency, the
Hospital respectfully submits that no extrapolation may follow as there are statutory infinnities to
such a finding.

                2.      Statistical Deficiencies

        Even if, for the sake of argument, one were to assume that extrapolation of the 70 claims
were legally appropriate, the decision to engage in post-sampling stratification, after initially selecting
a simple random sample of 200 claims, coupled 'W-ith a series of other material irregularities
(discussed below) raises genuine concerns about the validity of the extrapolated numbers.

        The OIG's preoccupation with recoupment efficiency appears to have caused the agency to
lose sight of other critically important objectives in conducting and reporting on industry audits.
Principal among these is the need for the OIG to proceed in a manner that is not only fair, but has
the appearance of fairness -an objective that is discussed in Section III.C.i. above. Of equal
importance, is the objective of reliability. In a nutshell, the OIG's processes and findings must be
transparent (!&, readily accessible and understandable) and reliable.

        These objectives notwithstanding, the OIG has never articulated its rationale for using a
sample size of 200 claims. Moreover, it has not provided an e;...'Planation of why, in all but one
reported case thus far, the audited hospitals have been asked to make a straightforward refund while
JFK, which we believe has better processes, practices and outcomes, are subjected to extrapolation
to a seven-figure monetary demand.
                                                                                                        Page 11 of 16




 DENTONS 	                Lon s. Pilcher                                               Solono FMC SNR DonlOn
                          June 17. 2013                                                dentons.com
                          Page 11




       JFK also respectfully notes that it appears that the OIG has not given appropriate thought to
the sample design (and hence sample reliability) as reflected in the numerous errors identified by
independent staristical eli.'Perts retained to review the OIG's work in this case. For example, even a
cursory review of Universe of claims makes it patently clear that there is a decided lack of claim
homogeneity - with radical swings in the amounts at issue on a claim-by-claim basis36 - thereby
heightening the importance of a carefully constructed sample design. The OIG seems ro have
recognized the lack of claim homogeneity in the sample and attempted, post hoc, to bolster the
reliability of its contemplated extrapolations by post-sampling stratification, that is dividing the
sample into three strata. Post-sampling stratification, however, is rarely a substitute for careful
sample design or a "fix" for poorly designed statistical samples as evidenced by the fact that Stratum
3 (which was associated with claims representing approximately 16 percent of the Medicare
payments in the Universe of Claims) contained only five (5) claims (or 2.5 percent of the sample),
rendering it statistically useless for extrapolation.

         Instead of acknowledging the inherent flaws in its sample design and abandoning either its
post-stratification efforts or extrapolation in its entirety, OIG appears to have attributed a zero value
to the five (5) Stratum 3 claims. The OIG claims that it persisted with post-sampling stratification in
order to enhance reliability. We, respectfully, argue that this approach: (1) did not achieve a precise
and thus highly reliable estimate of the overall extrapolated amount (overall point estimate of
$5,632,342), achieving a 90 percent confidence interval and a 21.96 percent precision level; nor (2)
did it enhance the precision level beyond what would have been achieved by a non-stratified
approach.

        JFK's review has concluded that the OJG's purported precision level is approximately 22
percent. We respectfully argue that this precision level is artificially enhanced by the OIG's
treatment of Stratum 3, that is setting claims in these Stratum claims to zero in an effort to address
sample design errors. At a 90 percent confidence level, JFK calculates Stratum 1 at a 24 percent
precision level and Stratum 2 with approximately 45 percent precision leveL Thus, the overall
precision level of approximately 22 percent may only be achieved because of the "fix" related to
Stratum 3.

        Independent of this issue, we note that Stratum 2's precision level at the 90 percent
confidence interval was an unacceptably high 44.92 percent - essentially 20 percentage points
worse than the twenty-five (25) percent precision threshold established by the O IG in its 1998
voluntary self disclosure protocol and widely used by Independent Review Organizations ("IRO")
auditing entities under O IG Corporate Integrity Agreements. JFK notes that, at the very least, the
OIG must conclude that there can be no statistically sound basis to ell."trapolate in any way based on
these findings alone.


36
        Claims in the Universe have a payment range of $100 to $48,381.07.
                                                                                                           Page 12 of 16




 DENTONS 	                  LOllS. Pik:ner                                                Salana FMC SNR Danton
                            June 17, 2013                                                 dentons.com
                            Page 12




        In addition, it appear.; that had the O IG run the exact same 200-claim data that were used in
the post-stratified variable appraisal in a non-stratified manner, it would have achieved an overall
point estimate of $5,607,016 with a lower limit at the 90 percent confidence interval of $4,363,113 ­
an alleged overpayment amount that is $32,156 lower than the overpayment amount calculated by
OIG with a precision level that is only .22 percent less r eliable than the artificially obtained stratified
21.96 precision level As such, clearly post-stratification did not achieve the goal articulated by the
OIG in enhancing the precision level. The negligible difference between a precision level of22.18
and 21.96 illustrates yet again that the OIG's post-stratification efforts failed, essentially achieving
(and artificially so) no additional precision or reliability.

        JFK identified additional errors in the OIG's sampling and extrapolation exercises. In
further attempts to assure J f'K that it need not be concerned with the pr oblems with Stratum 3, the
O IG states that "errors associated with claims outside ofStrata 1 and 2 were not extrapolated."37
This statement, however, is incorrect. Statistical testing unequivocally demonstrates that all 200
sampling units were used in the post-stratified appraisal.

       JFK has also identified errors in the OIG's Summary Review Sheets that call into question (if
not outright undermine the integrity of) the OIG's stated overpayment figure, and by extension, its
extrapolation to the Universe.

        AtJFK's request, the OIG did provide various documents. In examining those documents,
JFK noted that in the OIG summary review sheet (jFK-200_Samp/.e Findings_S11111111ary new.xlsx), the
OIG ascribed payment amounts for 13 of the 200 claims in the sample(!&, 6.5 percent) that simply
do not match the payment amounts reported in the Universe of Claims~ 12-07032 Sampling
Frame.xfsx and 12-07032 Random N11mbersxlsx). For example, when reporting its post-audit findings,
OIG reports and uses a claim payment amount of $4,210.49 for sample claim number 142. Yet, as
best as could be determined, this same claim is reported in the Universe of Claims as having a claim
payment amount of $2,551.21. This raises an inevitable question: How did a claim payment amount
increase by approximately S1,660? The other 12 such discrepancies are captured in the Chart
attached hereto at Tab B.

        'lhe existence of these payment data discrepancies - coupled with how difficult the OIG's
work papers make it for an independent statistician to try match the Universe, random numbers and
review sheet with the actual sample - are exceedingly troubling. They suggest a pattem of
unexplained, but undeniable, non-sampling errors in parts of the sample data and seriously
undermine the claimed reliability of OIG' s recommended overpayment amount.

       In addition, the OIG's workpapers appear to include a duplicate claim in the Universe of
Claims, further eroding any remaining confidence :in the validity of the process and resulting process.

37
        OIG Response toJFK Inquiry Regarding Sampling Methods (May 28, 2013), attached at Tab C.
                                                                                                               Page 13 of 16




 DENTONS                    Lori S. P1lcher                                                   Salons FMC SNR Denton
                            June 17. 2013                                                     dentons.com
                            Page 13




Specifically, FI_DOC_CLM_CN'lL_N UM- 20927400671302NTA 01 appears twice in the frame
with the same date of birth, payment amount, date of service, but different HCIN ~ CLM_NUM
2797 and 2799) .

        Based on all of the errors above, including but not limited to, (1) identified apparent errors
in the OIG's stated overpayment, and by extension its extrapolation, (2) unell.1'lained bases for
favoring eJ.."ttapolation in lieu of such issues, (3) the unacceptably high precision level for Stratum 2,
which exceeds the OIG's own accepted threshold; and (4) the artificially enhanced precision level at
the 90 percent confidence interval, JFK respectfully submits that not only should the overpayment
findings be questioned, but extrapolation should be rejected.

                3. 	     Extrapolation is inconsistent with the OIG's stated purpose of the
                         Medicare Compliance Reviews and is fundamentally unfair

        The OIG has indicated that the purpose of these specific reviews is to "use them to instruct
the hospital on best practices and prevent any future problcms."33 We respectfully submit that this
goal is not advanced by applying extrapolation in this case. Indeed, there is nothing instructive
about extrap olation.

        Moreover, to extrapolate in JFK's case would be fundamentally unfair. This is the case
because, as referred to above and set forth in Tab A, the OIG bas released 55 Medicare Compliance
Review audits involving the same Risk Areas at issue in this case, but has not extrapolated its
findings in 54 of the 55 reported cases. Moreover, 26 facilities had error rates higher than JFK with
16 of those facilities having error rates in excess of 50 percent; and in none of those cases did the
OIG recommend extrapolation.39 We strenuously object to extrapolation for a facility with an
"error rate" perforrnance that is significandy lower than most other facilities reviewed by the OIG.

        Finally, extrapolation, even ifit were appropriate, is premature because the OIG's alleged
error rate is erroneo usly inflated. There will be no settled "error rate" from which to extrapolate
until JFK has had the opportunity to avail itself fully of its appeal rights. As noted above, JFK
contests 39 of the OIG's 70-claim findings.

        JFK's appeal history is the best evidence of the premature nature of any extrapolation. With
regard ro the Universe of Claims, the RAC has identified 297 claims for complex review (that is
Short-Stay and DRG-related coding). Of this 297-clairn total, 261 claims relate to Short-Stay cases.
Of those, JFK has appealed 100 claims and of the 19 appeal decisions rendered thus far, JFK has
prevailed on all of these cases. Moreover, of these 261 claims, the RAC agreed withJFK on 59
Short-Stay cases. Clearly, this is a fluid process that affords JFK appeal rights that have yet to be


38 	    Modem Healthcare, Altdils said to put hotpilau on lrruk, pp. 17-21 (Oct. 22, 2012).
39 	    ~TabA
                                                                                                        Page 14 of 16




 DENTONS 	                 Lon S. Pilc!ler                                             Salons FMC SNR Denton
                           June 17, 2013                                               dentons.com
                           Page 14




fully exercised. Given its appeal history, clearly some number, indeed perhaps a significant number,
of cases will be found to be proper. As such, utilizing a 70-clairn error rate is patendy premature and
imprecise and may require JFK to refund amounts as overpayments that have yet to be determined
to be such. Accordingly,JFK requests that OIG abandon the extrapolation recommendation in its
entirety.

                4. 	    The OIG's "overpayment'' amount is inflated because it claims the
                        entire DRG amount as an "overpayment" when the OIG concedes JFK
                        can rebill those claims to recover, at least, the Part B payment

         The Draft Report does not dispute the medical necessity of any services rendered. Thus,
even for the 54 Short-Stay cases the OIG finds to be in error, it concedes that these claims may be
eligible for Part B payment.<O As such, JFK should be pe.rmitted to calculate and deduct from the
Part A overpayment the amount that which should have been paid under Medicare Part B.

         Even if, for the sake of argument, JFK agreed that all 54 Short-Stay cases were incorrect,
JFK's preliminary review estimates the overpayment to be approximately $169,688, and not
$256,633 as noted in Appendix A of the Draft Report. Moreover, ifJFK's appeal history holds and
it continues to prevail at the ALJ level on all24 Short-Stay claims it plans to appeal on the merits,
thus keeping the DRG payments for these 24 claims, the Part B payment amount of the remaining
30 Short-Stay claims is approximately $55,700, which would mean an. overpayment amount of only
$75,900 and not $256,633 as noted in the Draft Report.

        This position is consistent not only with the OIG's own Draft Report, but also with CMS'
own: (1) proposed rule, entided "Medicare Program; Part B Billing in Hospitals" addressing the
policy of billing under Medicare Part B following the denial of a Medicare Part A hospital inpatient
claim ("Inpatient Part B Proposed Rule");41 (2) CMS Ruling 1455 (issued March 13, 2013, r eferred to
as "CMS-1455-R") on the same topic; (3) CMS' Technical Decision Letter (issued July 13, 2012);4'
and (4) numerous Administrative Law Judge and Medicare Appeals Council decisions.'3



.,
42
        ~Draft Report at    p. 5, n.3.
        78 Fed. Reg. 16632 (Mar. 18, 2013).
        This 1DL is not publicly released, but JFK understands that such a document provides that:
        There have been a number of Administrative Law Judge ("ALJ'') decisions in recent months that
        uphold a claims administration contractOr's denial ofinpatient services as not reasonable and
        necessary, but require the contractor to pay for the services on an outpatient basis and/o r at an
        "observation .level of care." ... Medicare pays for observation services under the o utpatient
        prospective payment system ("OPPS''). However, observation services are generally bundled and
        not paid separately.
41      See In the case of O'Connor Hospital, Med & Mcd GD (CCH) P 122133 (H.I I.$. Feb. 1, 2010), 2010
        WL 4251 07, consistent with In the case of UMPNJ - University Hospital, 2005 WL 6290383 (H.H.S.
                                                                                                          Page 15 of 16




  DENTONS                  LotiS. Pilcller                                              SaliM FMC SNR Denton
                           June 17, 2013                                                dentons.com
                           Page 15




        With regard to the recently issued CMS-1455-R, the CMS Administrator specifically referred
to the plethora of ALJ decisions declaring that providers should be paid "under Medicare Part B
following a denial of a Medicare Part A hospital inpatient claim ... [if] an inpatient admission was
[found] not reasonable and necessary under section 1862(a) (1)(A) of the Social Security Act.'""'

          otably, CMS-1455-R was issued as somewhat of a bridge while CMS wo tks to finalize the
Inpatient Pan B Proposed Rule. In this proposed rule, CMS acknowledged that the Medicare
statute and regulations require CMS to pay hospitals under Medicare Part B for reasonable and
necessary services furnished to beneficiaries. Specifically, CMS provides:

                Having reviewed the statutory and regulatory basis of our current
                Part B inpatient payment policy, we believe that, under section 1832
                of the [Social Security] Act, Medicare should pay all Part B services
                that would have been reasonable and necessary (except for services
                that require an outpatient status) if the hospital had treated the
                beneficiary as a hospital outpatient rather than treating the beneficiary
                as an inpatient(.t

        CMS-1455-R is effective until the Inpatient Part B Proposed Rulc.'6 Thus, the CMS Ruling
applies to Part A inpatient claims that were denied because inpatient admission was not reasonable
and necessary, as long as the denial was made: (1) while CMS-1455-R is in effect; (2) prior to the
effective date of the Ruling, but for which there is still a timely appeal; or (3) prior to the effective
date of CMS-1455-R., but for which an appeal is pending.'7 CMS "acquiesce[d] to the approach
taken in the aforementioned ALJ and Appeals Council decisions" and found that that when a Part A
inpatient admission is denied because the inpatient admission was not reasonable and necessary, a
provider may submit a Part B inpatient claim for the Part B services that would have been payable
had the beneficiary been treated as an outpatient, rather than admitted as an inpatient, except when
those services specifically require an outpatient status.411


        Mar. 14, 2005) (directing the CMS contractor to reimburse the hospital for outpatient services 

        pursuant to Medicare Part B after payment WllS denied for inpatient services pursuant to Medicare 

        Part A); In the case of Indiana Universizy Health Methodist Hospital Docket No. M-12-872 (H.H.S. 

        May 17, 2012), 2012 WL 3067987, at "'10; ~ Tn the case ofMontefiore Medical Center, Docket 

        No. M-10-1121 (H.H.S. May 18, 2011), 2011 WL 6960290, at *22. Copies of all referenced cases are 

        included at Tab D . 

        Centers for Medicare & Medicaid Services, Ruling No. CMS-1455-R (Mar. 13, 2013) (hereinafter, 

        "CMS Ruling"), at 1. 

45      Id. at 16636.
46      CMS Ruling, at 2-3.
47      Td. at 14.
411     Id. at 4, 6.
                                                                                                     Page 16 of 16




 DENTONS                  LoriS Pilcher                                             S.lans FMC SNR Denton
                          June 17, 2013                                             dentons.com
                          Page 16




        In shon, consistent with the ALJ and Medi:care Appeals Council Rulings and the recent CMS
Ruling, OIG should (or recommend that CMS) calculate the overpayment at issue by detenn.ining
the difference between the inpatient reimbursement received and the outpatient reimbursement the
Hospital would have received. A recommendation that does not provide for this to be done prior to
extrapolation, if any, will give rise to a logistical nightmare because once the Part A payments are
extrapolated there will be no practical way to determine the Pan B set-off. This would be
inconsistent with the current state of the law and patendy unfair.

IV.    JFK's Internal Controls

       JFK is a responsible provider of healthcare items and services with a deep commitment to
operating in compliance with applicable rules and z:egulations. As pan of this commitment, the
Hospital routinely examines its coding and billing practices and procedures with the objective of
achieving ever-improved accuracy and completeness.

        JFK notes that currcndy, in order to ensure that patients are properly categorized as either
inpatients or outpatients, the Hospital uses outside clinical consultants to undertake a concurrent
review of the medical record and the presence of medical necessity, thereby enabling adjustments
before patient discharge. The OIG's determinations notwithstanding, as noted above even with
regard to 2009-2010 Short-Stay cases the Hospital has an impressive record in connection with
appealing and reversing RAC findings of error. This strongly suggests that the Hospital's internal
controls arc fully operational and highly efficient. That said, JFK \vill always seek to capitalize on
opportunity for improvement and it will redouble its efforts on enhancing compliance with regard to
the Risk Areas in the Draft Report.

                                             *      * *
       On behalf ofJFK, we thank you in advance for your consideration of our various arguments
and concerns. We, and our client, will make ourselves available to you in the event that you have
any questions or require further information.

                                                 Sincerely,

                                                 / Holley Thames Lutz/

                                                 H olley Thames Lutz
                                                 Partner

cc:     James Leamon
        D. McCarty Thornton
